<html>
<title> - EXAMINING HOW TECHNOLOGY CAN PROMOTE CONSUMER FINANCIAL LITERACY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  EXAMINING HOW TECHNOLOGY CAN PROMOTE

                      CONSUMER FINANCIAL LITERACY
=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON FINANCIAL INSTITUTIONS

                          AND CONSUMER CREDIT

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2014

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 113-76



                  U.S. GOVERNMENT PRINTING OFFICE
88-538                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

GARY G. MILLER, California, Vice     MAXINE WATERS, California, Ranking 
    Chairman                             Member
SPENCER BACHUS, Alabama, Chairman    CAROLYN B. MALONEY, New York
    Emeritus                         NYDIA M. VELAZQUEZ, New York
PETER T. KING, New York              BRAD SHERMAN, California
EDWARD R. ROYCE, California          GREGORY W. MEEKS, New York
FRANK D. LUCAS, Oklahoma             MICHAEL E. CAPUANO, Massachusetts
SHELLEY MOORE CAPITO, West Virginia  RUBEN HINOJOSA, Texas
SCOTT GARRETT, New Jersey            WM. LACY CLAY, Missouri
RANDY NEUGEBAUER, Texas              CAROLYN McCARTHY, New York
PATRICK T. McHENRY, North Carolina   STEPHEN F. LYNCH, Massachusetts
JOHN CAMPBELL, California            DAVID SCOTT, Georgia
MICHELE BACHMANN, Minnesota          AL GREEN, Texas
KEVIN McCARTHY, California           EMANUEL CLEAVER, Missouri
STEVAN PEARCE, New Mexico            GWEN MOORE, Wisconsin
BILL POSEY, Florida                  KEITH ELLISON, Minnesota
MICHAEL G. FITZPATRICK,              ED PERLMUTTER, Colorado
    Pennsylvania                     JAMES A. HIMES, Connecticut
LYNN A. WESTMORELAND, Georgia        GARY C. PETERS, Michigan
BLAINE LUETKEMEYER, Missouri         JOHN C. CARNEY, Jr., Delaware
BILL HUIZENGA, Michigan              TERRI A. SEWELL, Alabama
SEAN P. DUFFY, Wisconsin             BILL FOSTER, Illinois
ROBERT HURT, Virginia                DANIEL T. KILDEE, Michigan
STEVE STIVERS, Ohio                  PATRICK MURPHY, Florida
STEPHEN LEE FINCHER, Tennessee       JOHN K. DELANEY, Maryland
MARLIN A. STUTZMAN, Indiana          KYRSTEN SINEMA, Arizona
MICK MULVANEY, South Carolina        JOYCE BEATTY, Ohio
RANDY HULTGREN, Illinois             DENNY HECK, Washington
DENNIS A. ROSS, Florida
ROBERT PITTENGER, North Carolina
ANN WAGNER, Missouri
ANDY BARR, Kentucky
TOM COTTON, Arkansas
KEITH J. ROTHFUS, Pennsylvania

                     Shannon McGahn, Staff Director
                    James H. Clinger, Chief Counsel
       Subcommittee on Financial Institutions and Consumer Credit

             SHELLEY MOORE CAPITO, West Virginia, Chairman

SEAN P. DUFFY, Wisconsin, Vice       GREGORY W. MEEKS, New York, 
    Chairman                             Ranking Member
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
GARY G. MILLER, California           RUBEN HINOJOSA, Texas
PATRICK T. McHENRY, North Carolina   CAROLYN McCARTHY, New York
JOHN CAMPBELL, California            DAVID SCOTT, Georgia
KEVIN McCARTHY, California           AL GREEN, Texas
STEVAN PEARCE, New Mexico            KEITH ELLISON, Minnesota
BILL POSEY, Florida                  NYDIA M. VELAZQUEZ, New York
MICHAEL G. FITZPATRICK,              STEPHEN F. LYNCH, Massachusetts
    Pennsylvania                     MICHAEL E. CAPUANO, Massachusetts
LYNN A. WESTMORELAND, Georgia        PATRICK MURPHY, Florida
BLAINE LUETKEMEYER, Missouri         JOHN K. DELANEY, Maryland
MARLIN A. STUTZMAN, Indiana          DENNY HECK, Washington
ROBERT PITTENGER, North Carolina
ANDY BARR, Kentucky
TOM COTTON, Arkansas
KEITH J. ROTHFUS, Pennsylvania



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 30, 2014...............................................     1
Appendix:
    April 30, 2014...............................................    41

                               WITNESSES
                       Wednesday, April 30, 2014

Cackley, Alicia Puente, Director, Financial Markets and Community 
  Investment, U.S. Government Accountability Office..............     5
Kehoe, Stephen, Senior Vice President and Head of Global 
  Financial Inclusion, Visa Inc..................................     9
Krajicek, Gabriel, Chief Executive Officer, BancVue..............     7
Lamb, Sabrina, Founding CEO, WorldofMoney.org....................    13
Saik, Barry, Senior Vice President and General Manager, Consumer 
  Ecosystem Group, Intuit........................................    11

                                APPENDIX

Prepared statements:
    Duffy, Hon. Sean.............................................    42
    Cackley, Alicia Puente.......................................    44
    Kehoe, Stephen...............................................    60
    Krajicek, Gabriel............................................    68
    Lamb, Sabrina................................................    77
    Saik, Barry..................................................    80

              Additional Material Submitted for the Record

Capito, Hon. Shelley Moore:
    Written statement of the Center for American Racial Equality 
      (CARE).....................................................    85
    Joint written statement of the Credit Union National 
      Association (CUNA) and the National Credit Union Foundation 
      (NCUF).....................................................    86
    Written statement of the Property Casualty Insurers 
      Association of America (PCI)...............................    89
Ellison, Hon. Keith:
    Written responses to questions submitted to Alicia Puente 
      Cackley....................................................    94
    Written responses to questions submitted to Stephen Kehoe....    96
    Written responses to questions submitted to Gabriel Krajicek.    97
Stivers, Hon. Steve:
    USA Today article entitled, ``Financial literacy education 
      has lasting impact,'' dated April 8, 2014..................    98


                        EXAMINING HOW TECHNOLOGY

                          CAN PROMOTE CONSUMER



                           FINANCIAL LITERACY

                              ----------                              


                       Wednesday, April 30, 2014

             U.S. House of Representatives,
             Subcommittee on Financial Institutions
                               and Consumer Credit,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2128, Rayburn House Office Building, Hon. Shelley Moore 
Capito [chairwoman of the subcommittee] presiding.
    Members present: Representatives Capito, McHenry, Pearce, 
Posey, Luetkemeyer, Stutzman, Pittenger, Barr, Cotton; Meeks, 
Maloney, Hinojosa, McCarthy of New York, Scott, Green, Ellison, 
and Heck.
    Ex officio present: Representative Hensarling.
    Also present: Representative Stivers.
    Chairwoman Capito. The Subcommittee on Financial 
Institutions and Consumer Credit will come to order. Without 
objection, the Chair is authorized to declare a recess of the 
subcommittee at any time.
    I now recognize myself for the purpose of making an opening 
statement.
    One of the most important skills that a child can learn is 
how to properly manage their personal finances. Earlier this 
month, I had the privilege of visiting with high school 
students, business and economics students in Ripley, West 
Virginia. And then, I visited a third-grade class in Dunbar, 
West Virginia. We discussed the importance of making sound 
financial decisions, including the importance of 
differentiating wants from needs.
    These visits were a wonderful opportunity for me to better 
understand the challenges facing these students. I must admit, 
when I was watching the PowerPoint and listening to some of the 
hints on good personal financial management, there were a few 
violations I am doing myself, so we can all learn how to do 
better.
    Although financial literacy efforts are often focused on 
students, learning the life skills of financial management 
continues throughout adulthood. This morning's hearing will 
serve as an opportunity for Members to learn more about the 
Federal Government's financial literacy efforts and how they 
compare to new and innovative private sector solutions to 
promote greater financial literacy among students and adults 
alike.
    In 2012, the GAO released a report that provided an 
overview of the Federal Government's activities and programs to 
promote financial literacy. They found 13 different programs 
offered by 13 different agencies, which spent about $31 million 
a year on financial literacy efforts in the year 2010.
    The report also found that there was significant overlap 
among the agencies, and recommended consolidation of the 
government's efforts to promote financial literacy. 
Furthermore, the GAO found that there was no mechanism to 
evaluate the effectiveness of these programs.
    If we are going to be devoting Federal resources to 
financial literacy programs, we must ensure these dollars are 
invested properly and effectively, and I look forward to 
hearing from the GAO this morning about additional measures 
that we can take to ensure these goals are met.
    The rest of this morning's panel will update Members on 
private sector efforts to promote financial literacy through 
technology-based programs. We will hear from three different 
private sector entities that have developed Web-based and 
mobile-based platforms for consumers to gain a better 
understanding of financial management. These tools, readily 
available to anyone with a mobile phone or a computer, are 
helping consumers gain a better understanding of personal 
finance, thus helping them make better financial decisions.
    Moving toward Web-based and mobile-based platforms to 
deliver financial literacy skills is essential as consumers 
become more reliant on mobile phones and smartphones. A recent 
Federal Reserve survey found that 87 percent of adults used a 
mobile phone, and of that population, 61 percent used 
smartphones.
    The same survey also found that consumers are becoming more 
comfortable with accessing financial services and payments 
through their mobile device. Again, I would put myself in that 
category. I am inching into that realm myself and really seeing 
the ease of use and the convenience and the accountability that 
it provides.
    As these trends continue, mobile apps can help consumers 
gain a better understanding of their finances. Apps can be 
updated to meet the evolving needs of consumers. As we will see 
today, private sector entities are developing apps ranging from 
educating children on the importance of saving to providing 
adults with a complete picture of their personal finances.
    I would like to thank each of our witnesses for joining us 
here this morning, and for their efforts to provide consumers 
with a better understanding of the impact of their financial 
decisions.
    I will now yield to the ranking member of the subcommittee, 
Mr. Meeks, for an opening statement.
    Mr. Meeks. Thank you, Madam Chairwoman. And I, too, am 
still learning certain tools myself and moving on.
    What I find is that by the time most children in this 
country finish middle school, we have a great deal of 
confidence that they are comfortable using computers and 
smartphones and social media and that they are tech-savvy. By 
the time they graduate from college, we have little confidence 
that they are equipped with the basic financial skills and 
understanding to make the most important financial decisions 
they will face as responsible adults.
    We often talk admirably about the new information age and 
about how successful our Nation has been in coming up with 
technological innovations that have improved the lives of 
millions. Today, Americans hold in their smartphones more 
computer capability than the most powerful supercomputers of 
the 1960s and 1970s that occupied entire basements of Federal 
buildings.
    Today, we are able to communicate instantaneously, see our 
pictures within seconds, and connect with family and friends 
remotely from anywhere on the globe in a matter of seconds. And 
today, we are able to trade in milliseconds and have market 
efficiency and price updates in ways that we never imagined. As 
technology has changed our way of living and our culture, our 
youth, from very early ages, naturally learn and become tech-
savvy.
    But as much as we have seen transformational innovations in 
the technological area, major evolutions have also occurred in 
the financial markets. Our mortgage products are so much more 
complicated. Our banks are offering and engaging in 
increasingly more sophisticated transactions and operating in 
much-evolved financial markets with more complex financial 
products being offered to consumers every day, some of which 
caused some of the confusion and the Great Recession that we 
had and the banks falling down when we had the financial 
crisis.
    So unfortunately, unlike in the technological area, our 
kids today are not keeping up with the innovations and added 
complexities of the financial markets. We have a generation of 
teenagers and young adults who are increasingly computer-
literate and financially illiterate. As much as they know about 
smartphones, and connecting on Facebook and Google, our kids 
are increasingly clueless about how financial markets work, how 
to manage their finances, and how to juggle the financial 
responsibilities of owing debt.
    In an economy and society where the biggest decisions that 
we make for economic prosperity and financial stability depend 
on making the right financial decisions, from investing in our 
education to buying a home or saving for retirement, we clearly 
need to do better to equip our youth with the proper skills 
they need in financial literacy.
    After all, how do you prepare for college when you don't 
understand your student loan? How do you buy a home when you 
don't understand the terms and obligation of your mortgage? And 
how do you invest or save for retirement when you are clueless 
about the financial tools and options at your disposal?
    We must do better, and instead of just saying, ``Reading, 
writing, and arithmetic,'' we should be saying, ``Reading, 
writing, arithmetic, and financial literacy.'' I believe it 
should also be part of the educational curriculum in every 
school so that we can make sure they have the tools that they 
need to be successful.
    Thank you, Madam Chairwoman. I yield back, and I look 
forward to hearing the testimony.
    Chairwoman Capito. Thank you.
    I recognize Mr. Pittenger for 2 minutes for an opening 
statement.
    Mr. Pittenger. Thank you, Madam Chairwoman, for yielding me 
the time today to discuss technology that can promote consumer 
financial literacy.
    According to the Federal Reserve, nearly 90 percent of 
American adults have a mobile phone. As access to mobile 
technology increases, so does the ability to conduct financial 
transactions and make more-informed financial decisions.
    These devices can be used as a tool to help Americans 
budget for the future and track their spending and savings 
habits through resources like having immediate access to bank 
account balances or depositing a check using a phone's camera. 
At the same time, studies indicate that financial literacy in 
the United States is at relatively low levels, making it 
difficult for many Americans to take full advantage of these 
payment systems.
    While the Federal Government has devoted increased 
resources to financial literacy initiatives in recent years, 
its efforts have been marked by excessive duplication and lack 
of coordination across agencies. The results of those efforts 
have been mixed at best.
    For the past several years, the U.S. Government 
Accountability Office has examined the effectiveness and 
efficiency of Federal financial literacy programs and found 
that Congress and the Federal agencies have devoted more 
resources to financial literacy, which has resulted in overlap 
and duplication, but little evidence of improved financial 
literacy among Americans. There was also a RAND Corporation 
study back in 2009 entitled, ``Federal Financial and Economic 
Literacy Education Programs'' which found that Federal 
financial literacy activities are fragmented across multiple 
agencies, with more than 20 different Federal agencies 
providing over 50 programs related to financial literacy.
    It is my hope that this hearing will shed light on how to 
make the government far more efficient for the American 
taxpayer, but also how innovations in mobile technology can 
contribute to the financial literacy of Americans by empowering 
them to make more informed decisions in their daily and long-
term financial planning.
    I yield back the balance of my time.
    Chairwoman Capito. Thank you.
    Mr. Green, for 2 minutes.
    Mr. Green. Thank you, Madam Chairwoman.
    I thank the ranking member, as well, and I would like to 
associate myself with his comments.
    I am honored to note that the Dodd-Frank Act established 
the Office of Financial Education within the Consumer Financial 
Protection Bureau (CFPB) to enhance financial literacy 
education. And I believe that this Act and this portion of it 
is going to be of great benefit to the American people.
    My hope is that as we move forward, the funding issue will 
become secondary, if not tertiary, to what we are trying to 
accomplish. It is important to make sure agencies are properly 
funded and it is important to make sure that funds are used 
efficaciously. But it is also important to make sure that 
agencies have the opportunity to fulfill their missions.
    Currently, as was indicated, the phone is one means by 
which persons can receive a good deal of information. I am 
proud to say that I have a phone. I am hopefully going to move 
to the latest technology; I still have a BlackBerry, but I am 
blessed to have an iPad. Not everybody has an iPad, but most 
people have a phone.
    In fact, the Federal Reserve reported that 63 percent of 
unbanked consumers have a mobile phone. And the indication is 
that 91 percent of underbanked consumers have a mobile phone. 
It appears to me that this technology can become the 
methodology by which people can acquire a good deal of 
intelligence.
    I hope that we will be able to move forward such that we 
can completely explore how this collaborative effort between 
the CFPB and other agencies will be of great benefit to the 
American people. This is a good piece of legislation that we 
passed. We just now have to make sure that it works 
effectively.
    I yield back.
    Chairwoman Capito. Thank you.
    I think that concludes our opening statements, so I am 
going to go to the panel.
    And we welcome each of you. You are distinguished 
witnesses.
    Each of you will be recognized for 5 minutes to give an 
oral presentation of your testimony. And without objection, 
each of your written statements will be made a part of the 
record.
    I would ask each witness to pull the microphone as close to 
you as you can so that we can hear you properly.
    Our first witness is Ms. Alicia Cackley. She is the 
Director of Financial Markets and Community Investment at the 
U.S. Government Accountability Office.
    Welcome.

STATEMENT OF ALICIA PUENTE CACKLEY, DIRECTOR, FINANCIAL MARKETS 
AND COMMUNITY INVESTMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Cackley. Thank you.
    Chairwoman Capito, Ranking Member Meeks, and members of the 
subcommittee, I am pleased to be here today to testify on the 
important topic of financial literacy. In my statement today, I 
will provide a brief review of Federal financial literacy 
programs, activities, and agency roles, as well as a progress 
update on recommendations we have made in this area in the past 
several years.
    In 2010, there were 16 significant Federal financial 
literacy programs or activities spread among 14 agencies, as 
well as 4 housing counseling programs spread among 3 Federal 
entities. Since that time, at least 4 of these programs have 
been discontinued or are no longer funded, and according to 
Treasury and CFPB, no new Federal programs have been added.
    With respect to agency roles, the CFPB became operational 
in 2011 and has a primary role in addressing financial 
literacy, with offices that offer specific help to certain 
subpopulations such as servicemembers, older Americans, and 
students.
    In addition, the 22-member Financial Literacy and Education 
Commission coordinates among other Federal agencies and between 
Federal agencies and State, local, nonprofit, and private 
entities. The Commission is also charged with developing a 
national strategy for improving financial literacy and 
proposing means of eliminating overlap and duplication among 
Federal financial literacy activities.
    Furthermore, since 2008, three Presidential advisory 
councils related to financial literacy have been tasked with 
creating partnerships among Federal, State, local, nonprofit, 
and private entities.
    In our reviews of Federal financial literacy efforts in 
recent years, we have observed important improvements or 
successes in four areas: coordination; partnerships; the CFPB's 
role; and evaluation tools. And we have identified one major 
area in which we believe significant work remains to be done: 
determining the most effective and efficient allocation of 
Federal resources.
    In terms of the successes, overall, coordination on 
financial literacy has improved in recent years, largely due to 
the role of the Commission. The Commission has also built and 
promoted partnerships among Federal and non-Federal sectors, 
including academics, nonprofits, and other entities.
    As we recommended, the CFPB has taken steps to delineate 
and distinguish its role in Federal financial literacy efforts 
from that of other Federal agencies, and the CFPB and the 
Commission have taken steps to develop and disseminate a 
standard set of evaluation tools or benchmarks to help assess 
outcomes and effectiveness of financial literacy programs.
    Turning to our most recent recommendations, however, we 
continue to believe that further progress is needed in terms of 
ensuring that the most effective and efficient allocation of 
Federal literacy resources occurs. We noted in 2012 that the 
creation of the CFPB signaled an opportunity for reconsidering 
more broadly how Federal financial literacy efforts are 
organized.
    As a result, we recommended to Treasury and the CFPB that 
the Commission identify for Federal agencies and Congress 
options for consolidating Federal financial literacy efforts 
into the agencies and activities that are best suited or most 
effective. While Treasury and the CFPB both agreed with this 
recommendation, it has not yet been implemented.
    One natural vehicle for thinking strategically about how 
best to allocate resources is through the Commission's national 
strategy. We recommended that in revising its national 
strategy, the Commission incorporate clear recommendations on 
the allocation of Federal financial literacy resources across 
programs and agencies. Again, Treasury and the CFPB agreed with 
our recommendation but have not yet implemented it.
    We acknowledge that the governance structure of the 
Commission presents challenges in addressing resource issues. 
It relies on the consensus of multiple agencies and has no 
independent budget or legal authority to compel members to act.
    However, the Commission can identify resource needs, make 
recommendations, and provide guidance on how Congress or 
Federal agencies might allocate scarce Federal resources. This 
will give policymakers the information they need to help ensure 
the most effective and efficient use of Federal funds.
    Chairwoman Capito, Ranking Member Meeks, and members of the 
subcommittee, this concludes my prepared statement. I would be 
happy to answer any questions.
    [The prepared tatement of Ms. Cackley can be found on page 
44 of the appendix.]
    Chairwoman Capito. Thank you.
    Our next witness is Mr. Gabriel Krajicek, chief executive 
officer of BancVue.
    Welcome.

STATEMENT OF GABRIEL KRAJICEK, CHIEF EXECUTIVE OFFICER, BANCVUE

    Mr. Krajicek. Thank you.
    Chairwoman Capito, Ranking Member Meeks, and members of the 
subcommittee, it is an absolute honor to speak with you today, 
so thank you.
    My name is Gabe Krajicek. I am the CEO of a company called 
BancVue, and we serve about 700 community banks and credit 
unions across the country, providing products and services.
    As my written testimony shows, we have won numerous awards 
for our technology and we are widely regarded as one of our 
industry's top innovators. And that is important because 
innovation and receiving financial advice from a trusted 
adviser are the key components of any good financial literacy 
program.
    Our mobile and Web-based products--MoneyIsland, PiggyBot, 
and Kasasa 360--are already changing lives.
    For BancVue, this mission on financial literacy began in 
2009 when I was teaching an afterschool class on 
entrepreneurship for middle schoolers. I worked hours and hours 
preparing lesson plans and activities and homework assignments 
for my young students, and the class culminated in our 
participation in the National Lemonade Day event, where 
students would design, market, and operate their own lemonade 
stand.
    I was really excited. The kids were excited--especially one 
girl who wanted to be the CEO of the lemonade stand and run the 
cash register. Unfortunately, I realized very quickly that she 
could not make proper change, even after I handed her my iPhone 
and let her use the calculator.
    If you could have seen her face when someone handed her a 
$10 bill and she did not know what to do, you would have seen 
all of her enthusiasm vanish; you would have seen that self-
confidence that she had sink into self-doubt; and her 
excitement was just gone. Managing money, handling money should 
not make any child feel that way. It shouldn't make any adult 
feel that way.
    These financial literacy products that we offer are not big 
moneymakers for BancVue nor are they for our clients. But 
helping people with their financial future is vital to all of 
us. That is why MoneyIsland, PiggyBot, and Kasasa 360 are 
offered exclusively by community banks and credit unions, 
because these institutions understand that they provide trusted 
financial advice and help serve their communities one 
household, one parent, one child, one teacher, or one small 
business at a time so that people can achieve their financial 
goals.
    Please let me describe our products.
    MoneyIsland is a multilevel online video game that is 
designed for kids 8- to 14-years old. Collaborating with real 
students in real classrooms, we designed this to be an exciting 
adventure full of financial quests that teach eight key 
financial principles ranging from spending to saving, 
investing, as well as other topics.
    I know personally how hard it is to build a lesson plan, so 
we wanted to make it easier for the teachers to teach these 
financial concepts. We have included 17 preplanned lessons that 
make it kind of a paint-by-numbers approach for the teacher to 
explain the concepts to the students. And that is very 
important because less than 30 percent of American teachers 
have ever taught financial literacy, and less than 20 percent 
of them feel prepared to do so.
    MoneyIsland is a turnkey solution and our curriculum meets 
both the Jump$tart Coalition for Personal Financial Literacy 
and the Common Core math standards. It is offered by more than 
100 institutions across the country in 2,000 classrooms, and 
70,000 students have already completed their financial 
journeys.
    PiggyBot is a completely free mobile app that transforms 
the age-old practice of distributing kids' allowances into an 
interactive collaboration between Mom, Dad, and each child. 
Using PiggyBot, the kids set goals, like a new bike or a new 
doll, and then the mom and dad place portions of their 
allowance into three distinct buckets: spending; saving; and 
sharing. This is important because it teaches kids the value of 
planning how they are going to spend their money as well as how 
money can be used and should be used for different purposes.
    It was launched just earlier this month--on April 1st--and 
it has already had an immediate impact. It has been the number 
one free app for children on the iTunes Store; we have had over 
50,000 downloads; and already, 9,000 kids have established and 
achieved their financial goals all across the country.
    But adults need help managing their money too, and they 
want that help from someone they trust. Ninety-three percent of 
community bank and credit union customers really trust their 
financial institutions. Compare that to the 66 percent of 
Americans who still feel flat-out anger toward the megabanks 
for their role in the recent economic crisis. Even 31 percent 
of megabank customers don't trust their own bank.
    Plus, people want assistance from people they are familiar 
with, and that is why 75 percent of consumers say they want 
personal finance management (PFM) services from their primary 
financial institution, not from a third-party provider. That is 
why we launched Kasasa 360 earlier this month.
    Kasasa 360 is a very easy to use PFM that enables an 
individual to view, organize, budget, and manage all of their 
bank accounts, all their credit cards, their car loans, their 
mortgages, their investments, their retirement accounts--you 
name it, they can manage it all from their Web-based or mobile 
device. Kasasa 360 brings home our commitment to personal 
financial literacy offerings because it give parents hands-on 
control over how they manage their money, because, as financial 
guru Dave Ramsey would say, your children are watching you, and 
they will learn how to manage money based on how you do it.
    So what can Congress do to help? Well, as the pace and cost 
associated with compliance and regulatory oversight continues 
to grow, community banks and credit unions have no choice but 
to cut back on programs that don't directly generate new 
revenue. If there was a way, without sacrificing safety and 
soundness, to reduce the regulatory burden on community 
financial institutions, more of them would be able to provide 
services like these that offer financial literacy programs in 
every small town across America.
    Thank you for your time, and thank you very, very much for 
your commitment to financial literacy. BancVue will continue to 
build new, innovative products and services. Our community 
banks and credit unions will continue to provide the trusted 
advice that our fellow citizens need and deserve. And 
individually and collectively, we stand ready to help in any 
way we can.
    [The prepared statement of Mr. Krajicek can be found on 
page 68 of the appendix.]
    Chairwoman Capito. Thank you very much.
    Our next witness is Mr. Stephen Kehoe, who is senior vice 
president and global head of financial inclusion at Visa.
    Welcome.

 STATEMENT OF STEPHEN KEHOE, SENIOR VICE PRESIDENT AND HEAD OF 
             GLOBAL FINANCIAL INCLUSION, VISA INC.

    Mr. Kehoe. Thank you, Chairwoman Capito, Ranking Member 
Meeks, and members of the subcommittee. My name is Stephen 
Kehoe, and I am head of global financial inclusion at Visa. 
Thank you for the invitation to be here today to discuss how 
technology can advance financial education.
    At Visa, we believe that the most valuable financial tool 
is not a product, but knowledge. Empowering consumers with 
knowledge and skills to make informed decisions about and 
manage money wisely not only improves their own financial 
situation, but contributes to strengthening the economy.
    Our CEO, Charlie Scharf, was recently appointed to the 
President's Advisory Council on Financial Capability for Young 
Americans and is committed to sharing the work Visa is doing in 
this field.
    For over 50 years, Visa has enabled people, businesses, and 
governments everywhere to make and receive payments and connect 
to financial institutions. But providing consumers with access 
to quality financial services is just one piece of the puzzle.
    They need to know how to use these products wisely, thereby 
gaining the skills and confidence required to manage their 
money responsibly, because unless we empower them with this 
knowledge, we are doing them no favors. Lack of financial 
knowledge is the economic equivalent of handing a teenager the 
keys to a brand new car when he has never driven before. A 
wreck, financial or otherwise, is inevitable.
    The best way in which we can help that new account holder 
from crashing is to provide them with financial education long 
before they ever acquire a financial account.
    For nearly 2 decades, Visa has focused on developing 
financial education programs that teach individuals of all ages 
the basics of money management. This includes how to budget, 
save, and spend responsibly. In the last 6 years, we have 
reached more than 30 million people in 30 countries.
    In the United States, our flagship program, Practical Money 
Skills for Life, helps parents, teachers, students, and 
consumers learn the essentials of personal financial 
management. We know learning and, for that matter, teaching 
personal finance can be a challenging endeavor. In order to 
ensure success in educating everyone from elementary school 
students to adults, it is important to focus on creating and 
developing tools which not only are effective and relevant, but 
are wholly engaging for consumers of all ages, and that is 
where technology can really make a difference.
    Our programs' Web sites attract more than 49 million views 
per year and provide a range of free, innovative, and engaging 
resources such as classroom lesson plans, educational video 
games, smartphone apps, podcasts, and other tools.
    One of the most effective ways to make learning fun for 
children and young adults is through the use of games and 
entertainment. As part of Practical Money Skills, we have 
developed a suite of educational games online and for a variety 
of operating systems. These include games for younger kids such 
as Peter Pig's Money Counter, which has been downloaded more 
than 50,000 times, and Money Metropolis for middle schoolers.
    But by far, our most popular and successful educational 
game is Financial Football. Working with the NFL and the NFL 
Players Association, we developed an interactive money 
management video game which has now been played more than 
650,000 times online and continues to be downloaded from iTunes 
more than 50,000 times a year.
    Since the launch of Financial Football in 2007, we have 
worked with State governments to distribute the game for free 
to schools in 44 States. In fact, Chairwoman Capito's home 
State of West Virginia was the first to distribute Financial 
Football to every middle and high school through a public-
private partnership.
    We were also pleased to partner with Ranking Member Meeks 
to hold a Financial Football event in February at the Super 
Bowl. As of today, we have partnered with governors, State 
treasurers, and other officials to distribute Financial 
Football to more than 28,000 middle and high schools across the 
country.
    In addition to State governments, we have worked with over 
300 nonprofits, credit unions, community banks, and financial 
institutions to distribute our core literacy materials. We have 
found public-private partnerships to be an effective way to 
deliver financial education resources.
    Beyond games and educational entertainment resources, we 
have used technology platforms to create free, consumer-
friendly smartphone apps to teach the basics of budgeting and 
savings. These come in all shapes and sizes, from planning for 
retirement to budgeting for the prom to figuring out how much 
the tooth fairy should leave under the pillow.
    Twenty years of experience, however, tells us there is no 
silver bullet. The solution to creating a more financially 
literate, healthy citizenry requires a multipronged approach 
and constant innovation.
    In conclusion, technology offers many opportunities to 
reach people through new channels, but the technology must 
appeal to the people we are trying to reach. To impact today's 
young people, we must engage with them on their terms, which 
means on the technology platform of their choice, be it iPad, 
tablet, smartphone, or online. If we are serious about using 
technology to create a more financially literate society, we 
must be wholly committed to creating apps, programs, and 
resources that consumers want to use.
    Thank you for the opportunity to highlight some of the work 
Visa is doing to improve financial literacy. We are ready to 
work with this committee to advance this important cause, and I 
look forward to answering any questions.
    [The prepared statement of Mr. Kehoe can be found on page 
60 of the appendix.]
    Chairwoman Capito. Our next witness is Mr. Barry Saik, who 
is the senior vice president and general manager of Consumer 
Ecosystems Group with Intuit.
    Welcome.

  STATEMENT OF BARRY SAIK, SENIOR VICE PRESIDENT AND GENERAL 
           MANAGER, CONSUMER ECOSYSTEM GROUP, INTUIT

    Mr. Saik. Thank you.
    Good morning, Chairwoman Capito, Ranking Member Meeks, and 
members of the subcommittee. My name is Barry Saik and I am the 
senior vice president and general manager for the Consumer 
Ecosystem Group at Intuit. The Consumer Ecosystem Group 
includes our Quicken and Mint products.
    I appreciate the opportunity to speak with you today about 
how technology can promote consumer financial literacy. While I 
am here to talk today about Mint, I would like to first give 
you some brief background on Intuit.
    Intuit creates products and services with one mission in 
mind: We strive to improve people's financial lives so 
profoundly they cannot imagine going back to the old way of 
doing things. At its heart, this is all about financial 
literacy.
    Over 30 years ago our founder, Scott Cook, sat at his 
kitchen table watching his wife struggle to balance the family 
checkbook. This inspired him to create Quicken. Today, we are 
one of the Nation's leading providers of tax and financial 
management solutions for consumer and small businesses as well 
as the accountants who serve them.
    Through our flagship products and services, including 
QuickBooks, Quicken, Mint, and TurboTax, we remain committed to 
creating new and easier ways for consumers and small businesses 
to tackle life's financial chores with the help of technology.
    We help our customers make and save money, comply with laws 
and regulations, and give them more time to live their lives 
and grow their small businesses. Most of the small businesses 
are family businesses, and these tools help them survive and 
thrive.
    Mint, the leading personal finance app, enables users to 
link their financial accounts and view all of their financial 
statements in one place. We currently have over 15 million 
registered customers in the United States and Canada, and they 
are connecting to a total of over 220 million bank accounts and 
other financial accounts at different institutions.
    Additionally, Mint provides the tools for easy and free 
money management. Goal-setting is a unique tool which helps our 
customers set financial targets that matter to them, such as 
paying down credit card debt or repaying your student loans. 
Mint tracks an individual's progress towards meeting their 
personal goals and sends regular reminders to keep you on 
track.
    We currently have nearly 3 million customers who have set 
up over 7 million goals in Mint, and thousands of these goals, 
including paying off debt, buying a house, and saving up for a 
trip have already been completed by many Mint customers who are 
currently saving over $1 billion a month towards their personal 
goals.
    Mobile has also been a focus of ours for a few years. It 
has allowed us to reach a mass audience because, as you guys 
have mentioned, smartphones are the device that most people use 
to access the Internet today.
    Currently about 70 percent of our users start on and use 
our mobile app, with about 40 percent of them continuing to be 
mobile-only customers. Our mobile customers use the app to 
check their account balances and review their transactions--
things like checking recent spending and deposits--before 
making new purchases.
    With Mint, people don't have to think about how much they 
spend or spend hours with a financial planner. We do the hard 
work of collecting and categorizing transactions for them.
    For about 80 percent of people, the upward trajectory of 
their spending was tempered after they joined Mint and began 
monitoring their transactions. And most people's spending was 
further tempered if they used the information and set up 
budgets and goals. The biggest effects were observed in 
people's spending on things like groceries, restaurants, and 
credit card financial charges.
    Mint also provides ways for you to save more money beyond 
just budgeting. Mint has found over an average of $1,700 in 
savings for nearly 5 million of our users. That is a total of 
over $10 billion in savings identified by our users.
    Through our partnerships, we evaluate customer accounts and 
identify alternatives for them--things like better insurance, 
or credit card options, or even refinancing loans--and we allow 
them to opt in for these options. Should the customer choose 
one of these options, they are directed to the partner sites to 
apply and sign up for that option. By identifying these 
alternatives, we take away the common inhibitor to finding 
these deals on their own, which is the time it takes to 
research and apply for them.
    Intuit's mission is about empowering individuals. This 
shows up one customer at a time. I often hear from customers 
how Mint has helped them literally transform their lives for 
the better.
    Financial knowledge is a foundation on which individuals 
can build upon, but education alone is not enough. Our customer 
research has shown that simply providing people with knowledge 
about their credit card or student loan rates or how to save 
for retirement does not spur an individual to pay attention to 
these things in real life.
    Our research has shown that people learn by doing. It is 
one thing to learn about personal finances, but until you are 
faced with a real-world situation such as facing a large 
student loan debt when you are taking your first job and just 
setting out in life, that is when you really begin to practice 
what you have learned. And it is by going through that 
experience that you really learn about financial literacy.
    Mint provides the tools to help people with these real-
world situations and develop true financial literacy.
    Thank you again for the opportunity to testify, and I would 
be happy to answer any questions you may have.
    [The prepared statement of Mr. Saik can be found on page 80 
of the appendix.]
    Chairwoman Capito. Thank you.
    Our final witness is Ms. Sabrina Lamb, who is the CEO of 
WorldofMoney.org.
    Welcome.

   STATEMENT OF SABRINA LAMB, FOUNDING CEO, WORLDOFMONEY.ORG

    Ms. Lamb. Thank you.
    Chairwoman Capito, Ranking Member Meeks, and members of the 
subcommittee, on behalf of the WorldofMoney.org Youth Financial 
Education Institute, known as WorldofMoney.org, also 
represented here today by our youth board members Dante Stewart 
and Ciana Montero, thank you for the opportunity to testify at 
today's hearing.
    About 10 years ago, a disturbing trend swept across 
America. Young people, often accompanied by adults, began 
forming long lines outside of retail stores, shoving and 
clawing to purchase another pricey item to make them feel, for 
the moment, better about themselves. These youth and adults 
seemed oblivious to the fact that they were jeopardizing their 
already fragile financial condition.
    In response to this crisis, the WorldofMoney.org, a New 
York City-based nonprofit organization, was founded in 2005. 
The organization was selected as a Promise Place by American's 
Promise Alliance and by AOL Impact as one of 10 top social good 
organizations in America.
    WorldofMoney.org is acknowledged in President Obama's 
Advisory Council on Financial Capability report. Our mission is 
to challenge the way youth ages 7 to 18 engage with and manage 
money by equipping them with a robust, 40-classroom-hour 
curriculum taught by Wall Street professionals so that they can 
plan to live a financially secure and philanthropic life. To 
date, the WorldofMoney.org has provided critical financial 
education to over 3,000 youth and their parents.
    Over the years, unfortunately some parents have openly 
expressed their despair or their belief that living a 
financially secure life is not for them, that they are not 
worthy or able to experience generational wealth. Recently, one 
student said that he thought that the term ``financial 
freedom'' sounded like a scam.
    Other parents admitted how embarrassed they feel about the 
financial missteps that they have made. Alternatively, one 
mother defiantly shared, ``What I don't know, my child won't 
know.''
    Hundreds of well-intentioned individuals, corporations, and 
nonprofit organizations provide excellent online and gaming 
financial education. However, of the 3,000 youth that we have 
served, 98 percent of our economically diverse parents report 
that they have never felt compelled to search for or access 
this online information.
    How can technology help stem the widening gulf of 
financially uneducated and vulnerable Americans? Disrupt and 
interrupt.
    Creative content interruptions beyond one's primary Web 
site or application are warranted for at least three reasons: 
one, difficulties associated with motivating adults to pursue 
financial literacy; two, generational family history of being 
financially vulnerable; and three, predatory lenders' and 
fringe financial service providers' aggressively 
disproportionate targeting of communities of color.
    Technology can create a financial education cultural 
revolution by integrating a brand's message via social media as 
the new normal, targeting communities which generationally are 
reluctant to discuss or have a lack of knowledge in managing 
their finances. Millions of these families, often unbanked, 
still voraciously consume social media and cell phones.
    An online blended interruption could have a powerful 
subliminal impact on uninformed Americans. As a result, seeds 
of financial education would be planted and would provide a 
time-efficient experience of learning outside of the confines 
of one's personal fiscal crises.
    For maximum appeal, technology can also help by reflecting 
the cultural and racial diversity of Americans and how various 
communities interface with their personal finances. One content 
does not fit all.
    Thus, the user must feel that their issues are being 
addressed. Technology providers cannot build content and assume 
Americans will come and apply the information to their lives 
when they have had a generational distrust in doing so.
    Our parents report that they appreciate when they receive 
information that is protective in nature, that steers them away 
from toxic financial products and scams and bolsters their self 
esteem.
    The creators of financial education technology realize that 
they are already preaching to the choir. However, mobile 
technology messages can disrupt and influence a greater number 
of Americans by providing a learning experience while using 
mobile devices. Technology can support by being interrupters by 
sharing real-world, compelling testimonial videos which are 
mirror images of a mobile device user.
    Creators of financial education technology must have an up-
front understanding of the challenges of Americans so that the 
content can address a diversity of family statuses--for 
example, creating an application which sends real-time e-mails 
to working parents about the expenditures and bank transactions 
that are being made by their children while including a savings 
roadmap. Or e-mail reminders could ask young adults, ``Have you 
reviewed your credit report this year?''
    Third, a nonprofit organization's newsletter could instruct 
how to research investment options. And lastly, since the use 
of technology is overwhelmingly popular, our organization is 
determined to empower our youth so that they will move beyond 
being solely consumers. Thus, we will teach them how to create 
and understand the fundamentals behind the Web sites and 
applications that they are using.
    Through personalized videos on tablet applications and 
games, Americans could have the ability to interact and 
communicate with a service provider's financial expert rather 
than simply passively reading. Financial institutions and cell 
phone companies could send money lessons via text message 
directly to a mobile unit or embed a message when the customer 
makes a bill payment or an online bank transaction, such as 
Ciana Montero's post on Facebook, ``When I grow up, I am 
determined to be a PIG farmer; Passive. Income. Generator.'' 
And Dante Stewart posted, ``Did you know that 55 percent of 
students acquire their first credit card during their freshman 
year?''
    In conclusion, technology holds the promise of expanding 
access to personal finance education by providing flexibility 
in how, where, and when learning occurs. However, mobile 
technology will never be a replacement for the power of in-
person, motivating instruction between students and financial 
experts.
    Thus, technology should be used as an instructional 
supplemental activity that is supported by compassionate 
financial coaching or attending the WorldofMoney.org Youth 
Financial Education Institute in New York City.
    Thank you.
    [The prepared tatement of Ms. Lamb can be found on page 77 
of the appendix.]
    Chairwoman Capito. Thank you all.
    I will now recognize myself for 5 minutes for the purpose 
of asking questions.
    Ms. Cackley, in the report that you generated you mentioned 
that there were, I think, 14 different programs across a lot of 
different agencies and that there is some coordinative effort 
but really not a whole lot to evaluate the effectiveness of the 
different programs. Is that a correct statement?
    Ms. Cackley. Essentially what we found is that there are 
now 13 different basic financial literacy programs, because we 
started with 16, and 3 are no longer funded or no longer exist. 
And then of the housing counseling programs, which have a 
financial literacy component, there were four and now there are 
three. So we have seen some trend toward consolidation and that 
is a positive thing as long as you are consolidating in the 
most efficient way and with the most effective programs.
    When we looked at the evaluation of the different programs 
across the Federal Government, we found that many have been 
evaluated, but some have not. Not all of them are conducive to 
having a good evaluation done and we tried to look at what made 
sense, and basically we found that there is more work that 
needs to be done there, and part of our recommendation to the 
Commission was that they consolidate where programs had been 
found to be effective. So, the evaluations have to be done.
    Chairwoman Capito. Yes. Right. I think that sounds like a 
judicious use, obviously, to look and to consolidate, but it 
looks like--certainly from the panelists that we have here 
today, there is a lot of innovation going on in the private 
sector and the nonprofit sector to try to answer the same 
question.
    So I would like to ask Mr. Krajicek and Mr. Kehoe: You both 
talked about your--and Mr. Saik, too--programs going into the 
school systems. Is this just a--is it a dedicated reflection of 
a certain State, of a certain region, or is it sort of 
haphazard? And how do you get into that space, because I think 
that is obviously where it has to start.
    Are you in the schools right now, Mr. Krajicek? I know you 
are in the banks and the credit unions.
    Mr. Krajicek. We are in over 2,000 classrooms, yes.
    Chairwoman Capito. And how did that occur?
    Mr. Krajicek. It occurs because we partner with local 
community banks and credit unions, and--
    Chairwoman Capito. So you leave it to the community banks 
to get with your local school boards, et cetera?
    Mr. Krajicek. Yes. The leaders of the local institutions 
are the same people who are interacting with the school 
superintendents and the principals, so they already have that 
natural community network, and it is a lot easier for them to 
bring a product like this into the education system than it 
would be for an outsider.
    Chairwoman Capito. Right.
    Mr. Kehoe, is that the same with you?
    Mr. Kehoe. Yes. It is very similar. We have a core set of 
materials, classroom plans, curricula that we make available to 
schools all over the country, and really the whole objective is 
to provide teachers and educators with the materials and then 
really leave it to them to figure out how to adapt it to their 
own sort of local needs and circumstances.
    And the way in which we get the material into schools is a 
whole variety of ways--
    Chairwoman Capito. Right.
    Mr. Kehoe. --through nonprofits, but also working with 
State governments.
    Chairwoman Capito. Let me ask you a question, since you are 
global and you are doing financial literacy around the globe. 
And I don't know if there is any kind of ranking here, but how 
do our American youth and adults rank around the globe in terms 
of financial literacy?
    Mr. Kehoe. There is no formal ranking in terms of that. I 
think our experience as we look around is that you see a clear 
differentiation between developed countries and nondeveloped 
countries.
    Chairwoman Capito. Right.
    Mr. Kehoe. If you look at the developed systems, I would 
hazard to estimate that you have some developed countries 
around Europe that are probably ahead of the game because of 
the way in which financial literacy is built into the school 
curricula as more of a sort of fundamental thing, and I think 
that picture is growing here but it is more mixed.
    Chairwoman Capito. Mr. Saik, do you have a comment on--is 
Mint in this--Mint is something that you buy, or that you 
purchase, I guess, on an app or is it--
    Mr. Saik. Mint is free either through the app store on your 
mobile phone or on the Web. There is a Web site, Mint.com.
    Chairwoman Capito. Okay. Are you in the school systems as 
well?
    Mr. Saik. We are not actively pushing ourselves into the 
curriculum of schools. From time to time, we do have educators 
who contact us. In the past, we have had educational programs 
to provide Quicken software.
    Chairwoman Capito. Right.
    Mr. Saik. Nowadays, people use Mint, and access is free and 
generally happens without us really knowing that it is 
happening in a school.
    Chairwoman Capito. Right. Okay.
    I now recognize Mr. Meeks.
    Mr. Meeks. Thank you, Madam Chairwoman.
    Let me first go to Ms. Lamb. In your testimony you talked 
about the importance of coaching, mentoring, and face-to-face 
interaction between youth and financial professionals, and how 
that plays a role along with technology. Can you tell us why 
this personal interaction is so important, in your opinion?
    Ms. Lamb. A computer can maybe convey a ding or bingo, 
``You won,'' or, ``You have the correct answer,'' and so forth, 
but when a child is looking for motivation, or even when a 
parent is looking for motivation, the body language and the 
credentials of the person conveying that information is just 
more powerful, as is reported and experienced by the parents 
who send their children to our institute.
    I have heard from teachers across the country, for example, 
who are resentful of having to be mandated to teach this 
curriculum because they feel intimidated because they feel 
their own houses--financial houses--are on fire. So as a 
result, their resentment appears when they are reluctantly 
having to teach this course when they feel they have their 
burden to teach other subjects.
    So when you have a skilled faculty of Wall Street 
professionals who are enthusiastic, that this is good, this is 
how you need to create generational wealth and convey that 
positive energy, so to speak, to children and to their parents, 
it has a more--we can't replace human beings. We have value. 
And the technology should be just a catalyst in order to--it is 
a follow up, but not the main source. It also should be backed 
up by a person.
    Mr. Meeks. What about the--because you also talked about 
educating not only the children, but the parents, and I think 
it is clear from our opening statements that both the 
chairwoman and myself are still learning--connection between 
the child and the parent in regards to financial literacy?
    Ms. Lamb. There are thousands of workshops for adults 
across the country. However, there is not a long line of 
parents trying to access those workshops. How we get parents to 
the table is we empower the children so that they can become 
financial team leaders and go home every night and say, ``Let's 
have a financial meeting with our family and decide, for 
example, how are we going to lower our bills, how are we going 
to save more?'' So the children are given the tools to bring 
home the information, thus empowering the parents.
    It has to be a holistic approach. One person just having 
the information is not enough.
    Mr. Meeks. Thank you.
    Ms. Cackley, let me ask you--I heard you say a number of 
times in your testimony how a lot of it was relying on the CFPB 
to carry out various financial literacy programs or to try to 
make sure that the products are not abusive or predatory. My 
question to you, though, is what additional role do you think 
that we are playing, government is playing, in developing and 
promoting financial capabilities for consumers? What more could 
we do as a government to try to make sure that we are getting 
people financially literate other than just saying, this 
product is bad? What more do you think we could do as a 
government?
    Ms. Cackley. The Federal Government is already doing quite 
a lot across a number of different agencies. As we said, we 
found programs that do provide information and tools for 
consumers not just about how to avoid fraud or bad products, 
but some of the things that we have been talking about already. 
There are a variety of ways that the Federal Government 
provides information.
    The Federal Reserve System has a number of Web-based games 
for children. Money Smart, which is the FDIC's financial 
education curriculum, is available, and a number of others.
    What I haven't done is looked more specifically at the 
technology piece and evaluated some of the newer things that 
are out there yet.
    Mr. Meeks. Is there any coordination? Because I understand 
in recent years, the GAO has encouraged the Federal agencies to 
do more to coordinate resources among themselves.
    Mr. Green, I think, talked earlier about how we utilize our 
resources. Are we coordinating the resources that we have so 
that we can promote financial capability among the American 
public?
    Ms. Cackley. We have seen more coordination, especially 
since the Consumer Financial Protection Bureau (CFPB) came into 
existence. They have a played a role in increasing the 
coordination across the Federal agencies.
    The Financial Literacy and Education Commission existed 
before the CFPB, but since the CFPB was created and the 
Director of the CFPB became the Vice Chair of that Commission, 
we have seen more coordination happen.
    Chairwoman Capito. Thank you.
    I now recognize Mr. Luetkemeyer.
    Mr. Luetkemeyer. Thank you, Madam Chairwoman.
    Financial literacy is extremely important. Being in the 
financial industry myself for the last 40 years, it is 
important, I think, to begin at the youth stage, because I have 
seen where the adults who don't have this background can't make 
good decisions, and then the financial services people have to 
sit there and spend their time to educate those people, and 
sometimes it works and sometimes it doesn't. And sometimes, you 
end up getting people out of messes they got themselves into 
that they may not have if they had just had a little knowledge. 
You would have been very helpful to them. So to me, this is an 
extremely important hearing, and I applaud all of you for being 
involved in it.
    Ms. Cackley, can you tell me what the total cost across all 
agencies is for the efforts by the Federal Government to put 
these programs in place?
    Ms. Cackley. I don't have an updated number for this year, 
but when we did our report, we found that in Fiscal Year 2010, 
the total Federal Government expenditure was about $68 million.
    Mr. Luetkemeyer. Okay. Did you do a return on your 
investment there? Do you have an idea of how much you helped 
people to be able to protect themselves and by doing that--
    Ms. Cackley. No. We don't have that kind of a calculation 
done--
    Mr. Luetkemeyer. Okay. In your discussion and 
investigation, do you see any gaps in the Federal programs that 
we need to be looking at or need to be--that these different 
agencies need to be coordinating to find a way to solve that 
gap? Or are they pretty well covering most of the bases?
    Ms. Cackley. We have seen that Federal agencies cover a lot 
of different pieces, especially the ones that serve specific 
populations. So I don't think that we have identified a gap, 
per se, but what we have suggested is that the Federal 
Government needs to make sure that they are putting their money 
where the most effective programs are, and what we would like 
to see is some assurance that--
    Mr. Luetkemeyer. I would guess that the biggest gap 
probably is keeping up with the technology to make sure that 
the education background is there for people to be able to 
utilize things like these other four folks here are trying to 
provide. I would think that would probably be the biggest 
challenge.
    Ms. Cackley. I am not sure I understood--
    Mr. Luetkemeyer. Okay. To me, the challenge is to be able 
to work with the other technology here, to be able to help 
those people access what these other folks are doing .
    Ms. Cackley. That is certainly something that the Federal 
Government is doing, using some of the new technologies.
    Mr. Luetkemeyer. Okay.
    Mr. Saik, in your discussion of your products I kind of 
take from that, that it is a service you are providing, that 
you actually still have--you have access to these people's 
information. Is that correct? Am I getting that part--
    Mr. Saik. Mint is a service that allows consumers to 
aggregate their information from their banks, so the consumer 
can view the information on the service, yes.
    Mr. Luetkemeyer. Okay. Do you have access to their 
information then?
    Mr. Saik. No, I do not.
    Mr. Luetkemeyer. You don't. From your testimony here and 
from reading it, it seemed to me that you still had a part to 
play in this, and I was kind of curious about that, if there 
were protections in place to be able to do that, but if that is 
not the case, if they purchase the application or it is given 
to them for free and then they utilize it and you have nothing 
to do with it after that point?
    Mr. Saik. Sorry. I thought you were addressing me, whether 
I have access. Yes, the--
    Mr. Luetkemeyer. No, your company.
    Mr. Saik. Mint.com is a service, yes, and we store the 
information for our customers on the service. We take the 
security and privacy of our customers' data extremely seriously 
and use all the latest technology to ensure that is the case.
    Mr. Luetkemeyer. So then, are you providing advice to them, 
as well?
    Mr. Saik. We do provide advice and tips, yes.
    Mr. Luetkemeyer. Are you watching their accounts or is it 
just that the program automatically says, hey, if you are--you 
didn't save enough this week, or you didn't make your payment 
this week, or your checkbook is about ready to go into 
overdraft protection? Do you, as a company, provide advice and 
say, hey, you missed an opportunity here to do something with--
    Mr. Saik. Yes. We analyze their statements and things like 
their bank accounts. We actually guide them through setting up 
budgets and then alert them when they have overspent their 
budgets, for example. We also alert them for things like extra 
finance charges on credit cards that they can avoid and suggest 
ways to avoid that. So, we do provide those types of tips and 
advice.
    Mr. Luetkemeyer. Okay. I guess the metric on how you gauge 
the success of your program is the number of people who--how 
you grow your business as a result of referrals from other 
folks or the satisfaction of individuals. How do you gauge the 
success of your programs?
    Mr. Saik. That is partly the way. We also ask our customers 
if they would recommend our service to other people because it 
is helping them achieve their goals.
    Mr. Luetkemeyer. Are you interacting with your customers 
and asking, ``How else can we improve our product? Are there 
other financial concerns you have that we could help you 
address?'' Do you ask that question of them?
    Mr. Saik. Yes, we do. We do a number of surveys of our 
customers. We are constantly in contact with them. That is one 
of the ways, and we ask them about what types of features or 
other additional things they would like to get out of the 
service. Yes.
    Mr. Luetkemeyer. Very good.
    I see my time is up. Thank you, Madam Chairwoman.
    Chairwoman Capito. Thank you.
    Mr. Hinojosa, for 5 minutes.
    Mr. Hinojosa. Thank you. Thank you very much, Chairwoman 
Capito and Ranking Member Meeks, for holding this important 
hearing focused on financial literacy.
    Financial literacy is truly a bipartisan cause. In 2005, 
former Congresswoman Judy Biggert and I joined forces to found 
the first congressional caucus devoted to furthering financial 
literacy for all Americans. Over the years, that congressional 
caucus has grown and supported legislation, hosted briefings, 
and engaged with many Federal agencies on promoting financial 
literacy at all levels of policy.
    So I am happy to have Congressman Steve Stivers of Ohio as 
the new co-chair for our caucus. We share a belief in the power 
of financial literacy to decrease inequality and increase 
financial stability and hope for one's future.
    Over the last few years, developments in technology have 
created opportunities to deliver financial education in new and 
innovative ways. So I am going to go right into the questions 
and ask the first two-part question of Mr. Barry Saik, of 
Intuit.
    Your company has been at the forefront of consumer 
software. Can you please share with us, in your opinion, what 
role your budgeting software can play in facilitating behavior 
change? And the second part: Can you share how your company has 
partnered with nonprofit and public organizations to empower 
those underserved communities financially?
    Mr. Saik. Yes. I have seen personally how our products, 
especially personal finance products like Mint, can help people 
learn about personal finance. I think what happens is it is one 
thing to learn about it and the theory about it, but until you 
actually--and I see this with--when first-time customers set up 
Mint and actually get all their data into Mint for the first 
time and see where they have spent their money, then you really 
realize how you are--what choices you are making and what the 
results of those choices are and are able to make corrections 
over time. And that is where the power and the real learning 
comes is by doing, and then learning through the experience. 
So, that is one way.
    Our company does have a number of programs where we work 
with nonprofits to provide services, particularly in our tax 
prep area. We have a lot of programs to help the 
underprivileged have access to tax prep software and services, 
as one example.
    Mr. Hinojosa. Is it possible to start getting children to 
understand the importance of financial literacy in the 3rd and 
4th grade, or would it be in middle school?
    Mr. Saik. I am not really an expert on education, so I 
would think yes, but I am probably not the best person to 
answer that question.
    Mr. Hinojosa. Ten years ago, we were told in the Education 
Committee that in order to recruit young children into STEM 
careers--science, technology, engineering, and math--we needed 
to start at the 7th grade. A decade later, today, we are being 
told that we need to introduce them in the 4th grade because 
many students can begin to understand the importance of looking 
at those opportunities.
    So it seems to me that we need to change our mindset that 
it is just for adults. It is for young children, and especially 
those who are now in high school, making big decisions on how 
to use a credit card and what schools to attend and what kind 
of loans to make, and so forth.
    My next question is for Mr. Stephen Kehoe, of Visa. Visa 
created exceptional financial literacy game applications for 
tablets entitled, ``Financial Football,'' but has also focused 
on leveraging mobile phones to engage the unbanked. In my 
district down in Deep South Texas, south of San Antonio to the 
McAllen-Edinburg area, nearly one in three are unbanked. Can 
you share how Visa has utilized mobile technology in developing 
countries and how this might be translated to the American 
market?
    Mr. Kehoe. Thank you for that question, Congressman.
    The nature and the scale of the unbanked challenge around 
the world and here in the United States is huge. And to see 
people locked out of financial services altogether is something 
that I think all of us recognize as being a huge public policy 
issue and one which I think the private sector is geared 
towards answering.
    There really is, in our view, no reason today why anybody 
should be locked out of formal financial services. The 
technology exists to connect people and the mobile phone is, 
indeed, that catalyst that we are seeing everywhere to enable 
the connection to be made.
    So in developing countries around the world, in fact, we 
are seeing some of the most cutting-edge use of mobile phones 
to enable payments to be made, transactions to occur, and basic 
financial services to be provided to some of the most 
underserved and poorest communities around the world. And in 
many ways, the reason why that is taking place is because 
technologies leapfrog. They have not had to go via the typical 
landline infrastructure that other countries are looking at.
    So to come to the United States, and particularly your 
constituents, Congressman, I think there are huge parallels in 
terms of the way in which you see some of your community groups 
beginning to operate and think about how mobile phone 
technology can be--
    Mr. Hinojosa. My time has expired. Thank you for your 
response.
    Mr. Luetkemeyer [presiding]. Thank you.
    With that, Mr. Pittenger from North Carolina is next.
    Mr. Pittenger. Thank you, Chairman Luetkemeyer.
    Ms. Cackley, you mentioned that there are 13 separate 
Federal programs dealing with financial literacy. Have you done 
a comparison with the effectiveness of our Federal programs as 
they relate to private sector financial literacy efforts?
    Ms. Cackley. No, sir. We haven't done a comparison against 
the private sector. We have looked at whether effectiveness 
studies have been done of the different programs, and there is 
some variation across the different agencies and programs 
partly because they are very different.
    But we have certainly recommended that effectiveness 
studies be done, and in doing that I would expect a comparison 
against what else is out there would be useful.
    Mr. Pittenger. Did any of the rest of you have any comments 
on that?
    Okay.
    I will address this to Mr. Krajicek: What technology is 
currently being used to improve mobile payment security and 
prevent fraud?
    Mr. Krajicek. At BancVue, we do not provide mobile payments 
offerings, so I am not an expert on that and would probably 
like to defer to the man to my left, perhaps, on that answer.
    Mr. Pittenger. That would be good.
    Mr. Kehoe?
    Mr. Kehoe. The technology is evolving so quickly, and 
certainly one of the biggest concerns that we were seeing early 
on was people's concern about the use of security in using your 
phone to make payments and new technology. But I think that we 
are seeing--we have seen the technology move so quickly, 
encryption of the phone devices themselves, the use of the 
chips in the phone to secure the device, and then the 
transaction itself, there are now, in many places, multilayers 
of security which are now impacting the phone. So both the 
device and the actual network and its users are getting safer 
and safer all the time.
    Mr. Pittenger. So you would say that you haven't seen fraud 
increase with the utilization of mobile payment technology?
    Mr. Kehoe. At the moment, actually, the use of mobile 
payment technology here in the United States is very, very 
small. And so, the amount of fraud that we are seeing in that 
system is extremely small, indeed. But we are not anticipating, 
as the technology increases, for that to be a big issue.
    Mr. Pittenger. Sure.
    Mr. Saik, do you have any comments?
    Mr. Saik. No. We don't do any mobile payments in Mint.
    Mr. Pittenger. Sure.
    Ms. Lamb, any comments on your part?
    Ms. Lamb. I just want to underscore that children are very, 
very interested in this subject, but only as consumers. We 
serve children as young as 6, and they are very interested in 
being financially educated.
    Mr. Pittenger. Thank you. I yield back.
    Mr. Luetkemeyer. Thank you.
    With that, Mrs. McCarthy from New York is next for 5 
minutes.
    Mrs. McCarthy of New York. Thank you, Mr. Chairman.
    And again, I thank Mr. Meeks for having this hearing.
    We have worked on this for quite a while. Both of us are on 
the Education Committee, and a few of us--during Dodd-Frank, we 
really were pushing to have financial literacy put into part of 
Dodd-Frank, which has ended up with you having the educational 
piece of it.
    So it is important to us, and the debate among us was at 
what age, also, to start reaching out to our young people. And 
certainly the consumers that we were looking at were more into 
the middle income to lower income range, mainly because they 
usually did not have the tools to figure out how to save.
    And we certainly knew here that most Americans don't save, 
those who should be saving don't save. After the financial 
collapse in this country, the good news is people did cut back 
on their debt and they did start saving. So that is a good 
thing and hopefully that will go into--because the average 
person who is retiring these days only has $30,000 to $40,000. 
Some have done better, but on the average they don't, because 
they are living from paycheck to paycheck.
    So I guess my question to all of you would be, as we are 
going into the technology age--and my colleague had brought 
this up on the security--especially with the breech that we 
have seen over the last couple of weeks going into--now I am 
older so I am a little more wary about doing my banking online, 
because all we do is get warned constantly. Most of us probably 
have very easy passwords where you would have to write them 
down if you really followed the techniques that some of the 
keys ask for. And we have constant hackers out there, so it is 
a concern for me.
    But with that being said, I still think it is important 
that financial advice and literacy go together, because people 
don't know how to save. And my parents came through the 
Depression so they did learn how to save because they knew that 
something could happen in the future.
    So I guess my question to you is--and I know a couple of 
you don't do banking, but it is going to be an issue for an 
awful lot of constituents back home on how we are going to do 
this, because it seems like when we come up with an answer the 
hackers get a step ahead of us, and it is only going to get 
worse. So I would just like your opinion.
    I know that you probably don't have anything to do with 
that because you are putting the financial literacy into the 
government programs. And it is really just information for them 
to go where they need to go.
    Ms. Cackley. We haven't done any work looking at the 
security issues around the financial literacy programs that the 
Federal Government provides. Certainly, GAO has done work on a 
variety of computer security issues, so I could defer to my 
colleagues back at the office who do that work and find out 
more information for you if you would like.
    Mrs. McCarthy of New York. Thank you.
    Mr. Krajicek. Obviously, technology is not without its 
risks. Things can be hacked.
    But as I often will remind consumers and bankers, when you 
have your paper statements mailed to your mailbox or you have 
your checks mailed to your mailbox, it is not terribly 
difficult for someone to get in there and steal that 
information either. So while there are risks associated with 
technology, I firmly believe that the benefits outweigh the 
risks.
    Even something as simple as a consumer being able to check 
their balance before they make a purchase to ensure that they 
can afford what they are about to buy can have transformative 
impacts on how they spend their money because they are always 
aware of exactly where they stand with their finances. And so 
benefits like that, when you imagine them deployed across the 
entire United States, I think are significantly outweighing the 
possible risks of occasional breeches, which will occur.
    Mrs. McCarthy of New York. I would love Mr. Kehoe to be 
able to answer, if you don't mind, sir.
    Mr. Kehoe. Thank you. I certainly agree that technology is 
certainly more of an enabler than on the risk side.
    Building trust is utterly critical to people of all ages 
enabled in the system, and of course, when you see headlines 
about breeches and things, these don't help. In our programs, 
we have extensive security educational modules, as well. There 
is a particular Web site called Visa Security Sense, which 
gives individual consumers advice on how to protect themselves 
online and with their money. And certainly we see that as being 
a vital part of the financial literacy curriculum.
    Mrs. McCarthy of New York. Thank you all for your 
responses.
    Mr. Luetkemeyer. Very good.
    Mr. Posey from Florida is next for 5 minutes.
    Mr. Posey. Thank you, Mr. Chairman.
    I thank the Chair and the ranking member for bringing this 
issue before us, and I want to thank all of the witnesses. Your 
testimony has been very interesting and actually, very 
pleasing. Never, as long as I have been elected, has financial 
literacy appeared as a concern of any citizen on any poll at 
any time. And of the probably over a million different 
constituents I have represented, none of them have ever 
mentioned it. That is a problem.
    Except for one. A financial planner in my district--and I 
probably shouldn't mention her name because some people might 
think that is indiscreet--Eileen Davis, has mentioned it 100 
times, and every time I see her, she mentions it. And I know it 
is a problem when we look at the statistics and we see how 
upside down so many young people are.
    I wasn't aware of a lot of the programs that you all are 
performing right now until we had this hearing, and I 
appreciate the great insight. And I am very pleased to hear the 
direction that we are going.
    The answer that I am kind of looking for to a question is 
how much you feel the affluence of our current-day society 
contributes to this problem? In most of our parents' 
generation, as the gentlelady from New York mentioned a little 
while ago, they were raised in a depression and they watched 
their money pretty doggone close. They didn't take anything for 
granted. They would been hungry. They would have been in want.
    Today's generation, for the most part, has no idea what 
that is like. And I would just like to get your quick view from 
each of you on how much you think the affluence of society has 
contributed to the irresponsibility, actually, that has become 
financial illiteracy. And we can start with Ms. Cackley.
    Ms. Cackley. I don't have an opinion as to whether or not 
it is worse now than it was before, but I think what we have 
found is that at all income levels, there is a need for 
information. That doesn't happen at this point; there are 
people, very wealthy people, who still don't have the 
information they need, and certainly middle-income and lower-
income people, as well.
    But I can't say over time what the change has been.
    Mr. Posey. Okay. And I have seen many times the credit card 
companies will send credit cards to high school and college 
students. I think there really needs to be a law that if you 
send somebody an unsolicited credit card, you have no right or 
redress if they don't pay it.
    I think that would be a fair game. It ought to work two 
ways. But you know what my chances would be of ever passing 
something like that, don't you?
    Mr. Krajicek?
    Mr. Krajicek. A few years back, when I was volunteering to 
teach middle school students originally entrepreneurship and 
then financial literacy, these were normal 6th, 7th, and 8th 
graders in not a terribly low-income but relatively low-income 
area in Austin, Texas, and it was amazing to see the amount of 
consumerism in those young children, comparing their 
smartphones to one another to see who has the coolest gadget or 
who has the best shoes.
    And, I can't speak to whether or not it was any different 
whenever I was in school, so I don't know if the trend has 
altered, but I can say that overt popularity of 
commercialization definitely is a hindrance to being able to 
teach financial literacy.
    Mr. Posey. Thank you.
    Mr. Kehoe. Congressman, I think there is probably something 
in the growing affluence of society that lends to that, but I 
think that the age-old challenge of people, regardless of their 
income level, living within their means, the need to sort of 
emphasize that and educate it just doesn't go away no matter 
what your income level is.
    I think one of the potential drivers for the need for more 
financial education today than yesterday is really just the 
plethora of choice and complexity out there of the number of 
potential financial products that people can buy and how much 
more easy it is to access them today.
    Mr. Posey. Thank you.
    Mr. Saik. Yes. I don't know if it is the affluence, but I 
certainly agree there are more inputs and more comparisons of 
people having gadgets and fun things in society today.
    But one thing I think about is the importance of the 
awareness and knowledge and the tools to actually make 
progress, and that is where I see the real gap. It is kind of 
like dieting. People know basically, eat less and exercise and 
you can lose weight, but it is hard for people to take the 
steps, and that is where I think we really need to focus is on 
how do you make the little steps and see some progress and make 
it simple to make choices and simple choices that help you get 
back on track is something to focus on.
    Mr. Posey. Yes, and I think we have all seen people spend 
money they don't have to buy things they don't need to impress 
people they don't even like. We see the government doing that, 
actually, too much.
    But lastly, Ms. Lamb?
    Ms. Lamb. I will say that for the parents and children whom 
I represent, it is not the affluence; it is the illusion of 
affluence and the tremendous emotional pain they feel with 
regard to this subject, so much that they are not going to 
whisper their pain to anyone that they are having financial 
hardships except in the case of an emergency. And the marketing 
is actually the success story here because it often teaches 
young people--the young people that I represent--that they are 
nothing unless they have someone else's name on their body.
    Mr. Posey. Thank you, Mr. Chairman. I see my time has 
expired. But I want to thank you for one of the best panels we 
have had in here yet.
    Thank you all for what you do.
    Mr. Luetkemeyer. Thank you.
    Mr. Scott from Georgia for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. This is, indeed, a 
fascinating hearing.
    I have been involved in financial literacy for a long, long 
time, so welcome, everybody.
    I just want to share a little incident. When I was in 
elementary school--I went to elementary school up in Scarsdale, 
New York, and our class project in the 6th grade was for all of 
us--
    Mr. Meeks. I knew you were a New Yorker.
    Mr. Scott. Absolutely, my friend.
    And so, our first class project in 6th grade was to go out, 
earn our own money--shoveling snow, raking leaves, doing 
everything we can--and then do our research to determine what 
stock we would buy. Then the whole class went down to the New 
York Stock Exchange and bought the stock.
    I never will forget that. It was one of the most profound 
moments of my life. I had my picture taken down there with 
Alexander Hamilton on Wall Street.
    And I have been on that trajectory and have had a piece of 
stock ever since. I got 75 shares of RCA. And if you go back at 
that time, RCA was a big deal.
    I mention that because that is the key. All we have to do 
is engage these kids, give them something.
    And that is why I was so excited with you, Mr. Kehoe, when 
you came to my office and sat down--I don't know if you shared 
that story, but he has an extraordinary game of, I think it is 
football, where you actually do it. Will you tell us a little 
bit about that?
    Mr. Kehoe. Gladly. Financial Football essentially is a game 
in which you pick your favorite NFL team that you want to play, 
and your ability to advance down the field to get a touchdown, 
whether it is a throw or a run, is determined by whether or not 
you correctly answer a question related to financial education. 
And so, you see kids playing this game who are so into the 
objective of getting the touchdown that they almost forget the 
fact that they are answering questions along the way. And of 
course, the harder the question, the longer the throw or the 
longer the run.
    We have found this to be an incredibly engaging way to get 
kids. And we also have, you won't be surprised to learn, a 
Financial Soccer game, as well, that is pretty much the same 
tool.
    Mr. Scott. I certainly commend you for that. And that is 
the kind of thing I am talking about.
    Now, Ms. Lamb, we have to get our education in our schools. 
I mentioned that story about me at the beginning, and that was 
a long time ago--but again, not too long ago. But what more can 
we do of that kind of activity? Because kids' minds are 
expansive. They are ready to learn.
    Why can't we require in the academic pursuits in our 
elementary school that a requirement would be just to go and 
have a youngster set up--go to the bank, set them up a savings 
account, set up a checking account, or, as in my case, maybe 
make a trip down to the exchange and buy stock?
    If we engage them in things, it makes an impact when you 
are very young and it sets a pattern. What more can we do to do 
that?
    Ms. Lamb. I hear it from parents, ``Why isn't it in 
schools?'' We can't wait for that to happen.
    Teachers report that they are overburdened already, that 
they are not experts in a subject that they are being mandated 
to teach. And when they do teach it, often it is only one 
subject, and then they have to go back to all the other 
mandates that they are required to teach so that their class 
can perform well on the State regents, for example. So, that is 
not a priority. And then the teachers, actually, just feel 
really intimidated by having to teach a subject in which they 
are not experts.
    Our organization represents about 200 different schools, 
where parents send their children to us, doing everything that 
you--we have opened and closed the NASDAQ Stock Exchange 4 
times--
    Mr. Scott. Yes.
    Ms. Lamb. Yes. We have done that. And we start at age 7 
where children are opening mutual funds and having 
conversations and reducing the financial discussion, in terms 
of the chaotic discussion, in the household.
    So yes, it would be wonderful if it was in all the schools, 
but we can't wait for someone else to do something that we see 
that we can provide another solution.
    Mr. Scott. So what do you think we here in Congress can do? 
Our reach for education is more getting resources down to the 
States; it is up to them to do it.
    But do you think as a part of our literacy effort, that in 
our appropriations and assistance down to the State, some kind 
of way we can put resources in there? It might not be the 
burden of the teacher to do it, but there are some 
extraordinary organizations like yourselves out there who could 
take these kids on field trips, who could take them to the 
exchanges, who could take them to the banks.
    Unless we do that and show them the greatness of it, and 
simplify it early in their lives, we are not going to win this 
battle.
    Ms. Lamb. We have requests from 14 different cities and two 
countries that want WorldofMoney to open up affiliates there. 
We welcome the support and obviously the funding from Congress, 
but Congress really needs to recognize, yes, this is a 
financial issue in terms of discussing opening stocks, and 
compound interest, and dividends, and so forth, but we have to 
really teach Americans that they can trust that they are worthy 
of having this discussion. And it is all a trust issue that we 
are all having a conversation about, and if they don't feel 
that--
    Mr. Scott. Thank you.
    Ms. Lamb. --they are worthy of having a discussion, of 
accessing Visa or Mint, they are not going there because they 
feel that experience should be for someone else, and they are 
going to fill the emptiness in their souls by putting someone 
else's name on their body until you can teach them otherwise. 
It has to be a holistic approach.
    Chairwoman Capito. Excuse me. Yes, time is--
    Mr. Scott. Well-stated.
    Chairwoman Capito. Time has expired.
    Mr. Scott. Thank you.
    Chairwoman Capito. Sorry about that.
    Mr. Scott. No, thank you for the extra time.
    Chairwoman Capito. Mr. Green for 5 minutes.
    Mr. Green. Thank you very much, Madam Chairwoman.
    And because the lady was very excited about her answer, I 
will yield some additional time for her to complete her answer.
    Ms. Lamb. It has become an absolute epidemic, Congressman, 
regarding this subject, and our children really do see the 
power of money in their households. They see their parents 
fighting and screaming and manipulating money and maybe not 
answering the phone when the credit card companies are calling. 
They see maybe their parents signing documents that the parents 
admit that they don't understand, signing away or agreeing to 
high interest rates, agreeing to subprime mortgages or what 
have you, because they don't feel the power to question 
anything.
    The access of the manipulation of money, the transferring 
of all these resources of--even if it is a dollar, it is 
feeling that you have the ability to question it, to say, ``I 
am not ready to sign this until I speak to my financial 
adviser,'' or, ``I am just not ready to sign it.'' And there 
are millions of Americans in all of your districts who are 
signing away or agreeing to legal contracts who don't feel the 
worthiness of their ability to question anything. And in order 
for us to really address this subject, we have to do so 
holistically.
    Mr. Green. Thank you very much.
    I am going to continue that in just a moment, but before I 
do, I would like for you to reiterate what you said about board 
members--I believe you have two board members here with you?
    Ms. Lamb. Yes. Dante Stewart, who is--
    Mr. Green. Would you please raise your hand, Dante, so that 
people will see that--
    Ms. Lamb. Dante Stewart and Ciana Montero. They started 
attending WorldofMoney when they were 11 years old, and have 
attended every year for the last 4 years. They have created 
businesses; they have changed the conversation in the 
household. And they represent thousands of children who have 
attended WorldofMoney who are really doing the same thing.
    Mr. Green. Now, let's return to the previous conversation 
or statements that you were making about how people find 
themselves contracting in ways that are not beneficial. I have 
some intelligence which connotes that about 66 percent of 
unbanked households use nonbank money orders and nonbank check-
cashing.
    I am sure we can see how that doesn't adhere to their 
benefit when you are buying money orders to pay your bills, you 
are also using these check-cashing places so that you end up 
getting money but it costs you. They use pawn shops. They use 
payday loans. They use rent-to-own agreements. You never really 
ever own it, by the way.
    Ms. Lamb. Right.
    Mr. Green. You just rent forever, with the hope that one 
day the product that is in your home may become yours.
    They use refund anticipation. If you are going to get a tax 
refund, that becomes a means by which you quickly go out and 
acquire that refund, but at a cost.
    So they live in a world where it costs them to do things 
that we take for granted--things that probably most of the 
people in this room, save a few, would not pay a penny to have, 
and that is very unfortunate.
    So the question for us ultimately is--and I think we are 
embracing it with the committee today and I salute my colleague 
who said that this has been a good hearing--how do we 
communicate this message to persons who believe they have no 
reason to bank because they have little money? Little money, no 
reason; much money, many reasons. How do you communicate the 
message to them that they have a stake in their own future by 
simply becoming a part of the banked community?
    Ms. Lamb. You can draw a comparison or an equation with the 
cost of purchasing those money orders with doing a free 
transaction with a bank. Congressman Meeks asked earlier what 
is the power of in-person instruction, well, that is what in-
person can do. When you draw those parallels, those equations, 
and when--we have done it at our institute and our parents and 
our children say, ``Really? It is free to do these same 
transactions at the bank?''
    Mr. Green. My time has also expired.
    Thank you, Madam Chairwoman.
    Chairwoman Capito. Thank you.
    Mr. Barr?
    I apologize to Mr. Barr. I should have gone to him first. 
But anyway, I am coming to you now, Mr. Barr.
    Mr. Barr. Thank you, Madam Chairwoman, and no problem 
whatsoever. I appreciate your leadership in holding this 
important hearing.
    I would like to direct my first question to Ms. Cackley and 
the GAO's work on the overlap of financial literacy programs 
across the government. And I note in your testimony here today 
that a while back in 2012, the GAO identified 16 financial 
literacy programs among 14 Federal agencies. I think as of 
April of this year, three of those financial literacy programs 
and one housing counseling program no longer existed, or no 
longer received funding. But there are still, needless to say, 
a number of Federal financial literacy programs across the 
government.
    One of the conclusions from your report appears to be that 
further progress is still needed to help ensure effective 
allocation of resources and to avoid unnecessary overlap. So 
where are those places where we still see duplication and waste 
in these Federal programs? And in particular, I would like for 
you to address not just the improvements that the CFPB has made 
in eliminating duplication, but also places where the CFPB can 
still improve in terms of enhanced coordination.
    Ms. Cackley. Certainly. First of all, what we have 
identified could best be described as fragmentation across the 
Federal Government. We did not find any instances where the 
exact same people were getting the same benefits from different 
agencies. So I just wanted to make the point that fragmentation 
is a problem if it leads to inefficiencies, and what our 
recommendations really spoke to was making sure that you are 
allocating scarce Federal resources in the most efficient way 
by putting the money where the most effective programs are.
    What we also, therefore, recommended was that the agencies 
need to know which are the efficient programs, which are the 
effective programs, and that is work that there is some 
information about effectiveness but not enough, and that is 
part of our recommendation is to do more--learn more and 
understand more. Each agency needs to know and to be able to 
show how effective their program is, and then that allows the 
Commission to make recommendations about where the resources 
should be allocated.
    Mr. Barr. And with respect to the CFPB's progress on 
coordination?
    Ms. Cackley. The CFPB's progress on coordination, they have 
certainly done more in terms of--through the Financial Literacy 
and Education Commission (FLEC), there have been partnerships 
created, there have--they have worked to--partly the programs 
that are no longer being funded I--or where resources have been 
consolidated, within the Office of Treasury, their Office of 
Financial Education, which we pointed out as being probably the 
closest example of an overlap, has been subsumed and the CFPB 
has taken on more of the principal thing that we identified.
    Mr. Barr. Here is perhaps maybe what--let's just get to the 
crux of the matter, which is that in 1960 the personal savings 
rate in America, the share of people's after-tax income that 
they actually saved was 11 percent. In 2013, it was just over 4 
percent.
    Now clearly, the economy has a lot to do with that: Three 
out of four Americans are living paycheck to paycheck; over 
half of Americans couldn't come up with $2,000 in a short 
matter of time if they had to.
    So with all of these programs that taxpayers are investing 
in, are we really actually making any progress?
    Ms. Cackley. It is a very good question. Part of the 
statistic about the savings rate is that it actually was much 
lower before the crisis. Americans' savings rate was, I think, 
closer to 1 percent. So 4 percent is actually an improvement in 
the recent past.
    But it is certainly a good question, and we haven't--it 
would be hard to assign any particular program as being able to 
turn around the savings rate for the whole country--
    Mr. Barr. I have just a little bit of time left, so let me 
just direct this final question to Mr. Kehoe.
    I applaud Visa's work in financial literacy, and my 
question to you is, would you all see consolidation with the 
government programs to maybe grants to some of your more 
successful efforts to be a more productive use of taxpayer 
dollars?
    Mr. Kehoe. I don't know if I can comment on the best use of 
taxpayers' dollars to do this. I think our focus really is, at 
its core is, let's produce materials which we know work with 
school kids, college graduates, everybody, and then work with 
the public sector to get it into the hands of people to do it. 
I think that is where we place our emphasis and that is really 
what we will continue to do.
    Chairwoman Capito. The gentleman's time has expired.
    Mr. Barr. Thank you.
    Chairwoman Capito. Mr. Ellison?
    Mr. Ellison. Thank you, Madam Chairwoman.
    And thank you, ranking member.
    I appreciate this very important hearing.
    One thing I just want to ask all of you quickly is, just to 
get this idea out there on the record, financial literacy--do 
you see it as a supplement to good consumer protection or as a 
replacement for it?
    Would anybody care to comment on that? Please feel free, 
anybody.
    Ms. Lamb. I would say it is absolutely a replacement for 
and is consumer protection generationally.
    Mr. Ellison. So are you submitting that we don't need 
consumer protection if we--
    Ms. Lamb. By having a financially educated American family 
who is also protected, and having the information to protect 
themselves, and having the information to make the proper 
choices that--
    Mr. Ellison. I hear you.
    Ms. Lamb. Okay.
    Mr. Ellison. Let me ask you this, though. What I am trying 
to get at is this idea--I just looked up American math 
proficiency, and if you look at industrialized countries around 
the world, we are actually pretty low compared to a lot of 
countries in math proficiency. So I might argue that ideally, 
sure, everybody understands all this stuff, no problem. In a 
country of 317 million who have a significantly diminished math 
capacity, where there are also high-pressure sale tactics and 
tricks, I might submit to you that we do need very active 
consumer protection and we also need active consumer education.
    Ms. Lamb. Sure.
    Mr. Ellison. We need both. So that is why I said, 
``supplement to'' or ``replacement for.''
    Ms. Lamb. I see.
    Mr. Ellison. So would you agree with me, Ms. Lamb, that we 
need both?
    Ms. Lamb. Absolutely.
    Mr. Ellison. Yes.
    Ms. Lamb. We need all the help we can get.
    Mr. Ellison. Right.
    Ms. Lamb. And all the information we can get, yes.
    Mr. Ellison. Yes.
    And another thing too, is we were talking about how to make 
Americans more financially self-reliant and able to protect 
themselves more. One of the things that has come up quite a bit 
is the issue of a fiduciary duty. I strongly favor rules that 
require financial advisers to have a fiduciary duty to their 
clients, and what improvements do you recommend--and by you, I 
mean the collective you--to better protect consumers from 
hidden Commissions, high fees, and kickbacks that cost them 
money?
    Any thoughts on this issue?
    Mr. Krajicek. I think that one thought would be for 
Americans to be encouraged to bank locally with local community 
banks and credit unions. These are guys who don't want to take 
advantage of their customers.
    I will tell you a quick story. One of the first times I met 
a community banker, it was a guy named James Mark, in a small 
town in Taylor, Texas--City National Bank in Taylor, Texas.
    He was about 30 minutes late for our meeting and I peered 
through his office window and saw him sitting there with an 
elderly lady and receipts all over his desk. When I finally got 
to go in and talk to him I said, ``What kept you so long?'' He 
said, ``That is Ms. So-and-so. She overdrew her account a few 
months ago and she has been coming in here every week and I 
help her and let her know exactly where to budget her finances, 
what she can buy and what she can't.''
    That is the head of operations at a community bank. And 
someone who gives that kind of support is not the kind of 
person who would try to hide a fee.
    Mr. Ellison. Got it. And let me just say, I think that is a 
very lovely story, and it is great that the lady has the access 
that way. But America has 317 million people.
    Mr. Krajicek. And we have 13,500 community banks and credit 
unions.
    Mr. Ellison. I know. I am not trying to debate you, sir. I 
am just trying to point out that while I think it is great that 
lovely story was told and that woman is getting help, we 
actually need to approach this situation on a systemic level.
    I agree with Ms. Lamb. We need to educate people. We need 
good Samaritans like the individuals you were talking about, 
but we actually need really active consumer protection, too.
    And I guess my question is and remains, what is the proper 
proportion and mix? Do you all agree with the strategy to 
protect consumers--all education?
    How about you, Ms. Cackley?
    Ms. Cackley. We certainly think that financial literacy is 
important, but it is not the only solution, partly because 
there are just limitations to what you can do even if you are 
financially literate--
    Mr. Ellison. Sure.
    Ms. Cackley. --and partly because there are some people who 
just aren't going to be able to learn everything that they 
should learn, and those people need to be protected, too. So it 
is certainly a ``yes, and'' as opposed to an ``either, or.''
    Mr. Ellison. I see the red light, and I want to thank the 
chairlady and the panel. Thank you.
    Chairwoman Capito. Thank you.
    Mr. Pearce?
    Mr. Pearce. Thank you, Madam Chairwoman. I appreciate it.
    And I appreciate the testimony each of you have given.
    We have probably done 50 financial literacy workshops 
ourselves. We see the need for it every day, especially in a 
poor State like New Mexico.
    Even my own family--Dad would never go into the banks. He 
just wouldn't do that. So, we always were struggling for 
housing. And Mom was the one who would sometimes go into the 
banks. But anyway, I am very, very familiar with it.
    Ms. Cackley, I was going to ask, you saw the testimony that 
Ms. Lamb had, and on page two she is talking about the 
predatory lenders' and fringe financial service providers' 
aggressive disproportionate targeting of communities of color. 
In your oversight of and in your looking at the different 
programs, are any of the programs helping people to understand 
what is going on out there and identifying the institutions 
which are doing this?
    If we are going to get financial literacy, we start with 
the problems first, tell you, ``These people here are here to 
take your money.'' And so, that is my question.
    Ms. Cackley. I don't have in-depth knowledge of each of the 
different programs and what all of their curriculums cover, but 
it is certainly true that a lot of different programs are 
available. There are a lot of different ways that information 
is provided to the public in terms of financial literacy, 
depending on which agency it is coming from and what their 
purpose is, whether it is Social Security talking to retirees, 
or somebody else talking to young kids, or just adults in 
general.
    But there are--
    Mr. Pearce. Let me ask this, and you have more knowledge 
than me. You have talked to more of the agencies than I have. 
If you haven't seen the programs themselves, have you ever seen 
an agency that is out there to try to tell people, ``This 
institution is doing these things?'' I don't see that myself, 
and I wonder why.
    What we are trying to do is we try to set up things for 
government to where they don't ever offend anybody and they try 
to get their objective across by enforcement on everybody, and 
not everybody is doing the things. Not every bank is--or not 
every payday lender is doing predatory things. They actually 
provide a pretty good service.
    But what we are going to do is we are going to kill all of 
them because a few are doing things wrong, and I just wonder 
why agencies don't ever go after the people who are doing it 
wrong and just advertise for them.
    Ms. Cackley. Certainly, the regulatory agencies who have a 
role in consumer protection do go after bad actors as they 
identify them. What I can't say specifically is whether or how 
they name them and get that information out to the public.
    Mr. Pearce. I want to take issue with you, because 
yesterday we were sitting in a hearing where we had Mr. Madoff 
turned in for 8 years by one guy saying he can't be correct, 
and so the regulatory agencies actually set it off on the side. 
But I am asking as much about those institutions you are saying 
that we--and I agree with you.
    I am out there trying to give financial literacy myself, 
but if our financial literacy is not going to include those 
difficult-to-talk-about things about the people who are doing 
stuff that is hurting consumers in a bad way, then we end up 
saying to the regulators, ``You have to regulate everybody else 
who is not doing anything bad.'' And what that winds up with 
are anomalies in our whole regulatory system that are affecting 
everybody who is following the rules.
    Community bankers did not cause the financial crisis, but 
Dodd-Frank basically goes after community bankers. And so, I 
just came from upstairs right now talking to a bunch of bankers 
who say, ``We could not make a loan to the best customer in 
this one town we have had forever because of the new rules,'' 
and that is what we get forced into this trying to correct 
problems with people who are not causing them and we don't go 
after the ones who are causing them.
    So my question is, you as a professional, so we get this 
layering on, we get multiple agencies doing the same thing, but 
none of them want to take on the problems that Ms. Lamb was 
talking about, and so we all kind of skirt around these things 
because they are very uncomfortable when we start talking about 
people directly who are doing things that are unproductive. I 
just wonder, again, if you think it is even possible for an 
agency ever to get into that realm--one of the educational 
agencies that you looked at. Can we get them into that realm?
    Ms. Cackley. I certainly think it is possible. I just don't 
know, of my own knowledge, whether it is being done already.
    Mr. Pearce. I had a lot of questions, but I got kind of 
bogged down, so the rest of you escaped cleanly today. Sorry.
    Chairwoman Capito. I would like to ask unanimous consent to 
submit the following statements for the record: the Credit 
Union National Association; the Center for American Racial 
Equality; and the Property Casualty Insurers Association of 
America.
    I now recognize Mrs. Maloney for 5 minutes.
    Mrs. Maloney. Okay. Thank you very much. I regret, Madam 
Chairwoman, that I had a conflict with the Joint Economic 
Committee, at which I had to be ranking member.
    I would like to ask Stephen Kehoe, in your written 
testimony you note that in order for financial literacy 
technology to be effective, it has to be appealing to the 
audience that it is being geared toward. Can you talk about 
some of the challenges that you are confronting involved in 
making this financial literacy technology appealing, and how 
has Visa tried to make their programs appealing to different 
groups? Do you have a different strategy for different groups, 
and how are you making it appealing?
    Mr. Kehoe. Congresswoman, thank you for the question. Yes. 
Yes, we do.
    So, our tools, our products in the area of financial 
literacy, as I said in the statement, are very much geared 
toward using entertainment as much as possible to engage. This 
can be a very dry subject, let's face it, for many, many 
people, and I think the challenge is you can engage with 
somebody once; the question is whether they will return to the 
same tool and use it again and again.
    So it has to be productive--there has to be an outcome that 
they get from it. For instance, they get some information which 
enables them to think more easily about retirement. Or it has 
to be fun, and they actually get something out of a game, which 
enables them to kind of go back.
    We have a range of tools which are available on mobile 
phone devices that really appeal to everybody from elementary 
to middle to high school and to college students to sort of do 
that. And really, technology is very much geared towards those 
age groups because, as you will appreciate, they are very tech-
savvy. They know how to use it and they want to engage with 
these devices.
    I think more of the challenge, then, is people at the other 
end of the spectrum--retirees. How do you engage with them most 
effectively? But I think that is something we are still 
learning how to do.
    Mrs. Maloney. Okay.
    And, Ms. Lamb, in your view, can technology fully replace 
what we think of as a more traditional one-to-one personal 
education that is what we have now?
    Ms. Lamb. Not fully, Congresswoman, because it has to 
overcome tremendous layers of distrust that many communities 
feel with regard to this issue and are--almost refused for 
decades to even have a conversation about it. It can add to the 
activity, but I don't believe it should be a full replacement 
for one-on-one or classroom style instruction.
    Mrs. Maloney. Ms. Cackley, is the governance structure of 
the Financial Literacy and Education Commission adequate to 
ensure that real progress is made in fulfilling the goals 
outlined in the national strategy? And do you think the 
agencies are targeting the right constituencies in their 
financial literacy programs?
    Ms. Cackley. The governance structure of the Commission is 
that the Secretary of the Treasury is the Chair of the 
Commission and the CFPB Director is the Vice Chair, and then 
there are 22 agency members. There is no authority within the 
Commission to compel any particular agency to take actions or 
to allocate resources, and that makes it challenging for the 
Commission to achieve some goals. We don't think it makes it 
impossible because the Commission can still make 
recommendations both to Congress and to the agencies, and that 
is useful information that you can then take and use to make 
policy.
    Could you actually repeat the second question, because--
    Mrs. Maloney. Do you think the agencies are targeting the 
right constituencies in their financial literacy programs?
    Ms. Cackley. Different agencies very much target different 
constituencies, and they have a very deep experience with 
certain constituencies, so Social Security has been 
communicating with retirees for a very long time and they know 
well how to do that. And similarly with the Department of 
Education and others.
    There are other agencies that look more broadly and provide 
information across a number of populations but the subjects 
that they cover can be very different. They might be specific 
to home mortgages, or they may be specific to something else 
targeted.
    We didn't recommend any specific consolidation within one 
agency, but we did see that the coordination across the 
agencies needed to be good in order for there not to be overlap 
and duplication. And we have seen some progress, but there is 
always room for improvement in terms of coordination, and that 
is certainly what we would recommend that they continue.
    Mrs. Maloney. Thank you. Are any constituencies left out 
that should have been targeted that you know of?
    Chairwoman Capito. The gentlelady's time has expired.
    Mr. Stivers for 5 minutes.
    Mr. Stivers. Thank you, Madam Chairwoman, for allowing me 
to be involved in this hearing. As the co-chair of the 
Financial Literacy Caucus, I know how important financial 
literacy is to our future. There was an article in USA Today 
about 2 weeks ago, on April 8th--3 weeks ago--by Hadley Malcolm 
that I would like to ask unanimous consent to submit for the 
record, which shows that financial literacy education works.
    Chairwoman Capito. Without objection, it is so ordered.
    Mr. Stivers. And I do have some questions for the 
witnesses. My first question is for Ms. Cackley.
    The new GAO report looked at all the financial literacy 
programs, and you list 16, but you say there may only be 13 
currently funded. Can you talk a little bit about the 
evaluations that those programs use to determine how effective 
they are and their lack of evaluation tools? I know the CFPB is 
moving toward creating an evaluation tool, but really, we don't 
know what we are getting for the money we are spending or what 
the outcomes are and what the engagement rates are, do we?
    Ms. Cackley. Different programs have done different levels 
of evaluation. We generally like to see something where there 
is good measurement of outcomes, and some programs have done 
that. I think certainly the National Foreclosure Mitigation 
Counseling Program had studies done on it; the Army's personal 
financial management training; Money Smart--those are some of 
the programs that we had identified as having had measurement 
and effectiveness studies done.
    But there are certainly others where they may be measuring 
outputs but not necessarily outcomes, so effectiveness hasn't 
necessarily been measured. Sometimes that is because the 
program isn't really geared to being able to measure an 
outcome, but in other cases it may just not have been done. And 
so certainly, more evaluation would be useful.
    Mr. Stivers. Thank you. And I noted that three of the other 
witnesses, in their written testimony, mentioned the need to 
either have ``edutainment'' or engage people in some meaningful 
way so that they will come back and not just go to a site once 
and be bored out of their mind.
    Ms. Lamb, you are shaking your head, and I know it was in 
your testimony about how important it is to actually engage 
people.
    Can anybody who wants to--and I will start with Ms. Lamb--
talk about how important that is, because we have to actually 
get people's attention before we can actually share 
information?
    Ms. Lamb. Right. It is a lot of great information, great 
online experiences that our witnesses represent, and if we 
can--if we have a community or millions of Americans who refuse 
to go there, but blend into their natural habitats or 
discussion or destinations online, we can educate them without 
them even making a conscious effort to log on to any of these 
amazing experiences, because they are just not going to go for 
a variety of reasons. But if we can just plant seeds--say, 
``Learn, earn, save, invest, donate,'' and--throughout wherever 
they are, on Instagram it just pops up, paying a bill, then 
perhaps they will determine to move towards a more robust 
financial education.
    Mr. Stivers. Thanks.
    Mr. Kehoe, you are at Visa, a major card platform. Tell me 
why Visa believes in financial literacy, and what they would 
like to see in their customers who have Visa cards as far as 
being financially literate and how that benefits Visa and our 
broader economy.
    Mr. Kehoe. Quite simply, a better informed, better educated 
consumer is simply a wiser spender. They manage their money 
more wisely, and that has a knock-on effect for the broader 
economy.
    So I think we look at the nature of the challenge and we 
are happy to sort of participate in pulling together the 
materials and the tools that will do this. And yes, we have a 
vested interest in making sure that everybody who carries a 
Visa card in their pocket knows what that product can do and 
how to use it wisely.
    Mr. Stivers. I am running out of time so the one last 
question I want to ask is, does anybody--just raise your hand 
if you agree with the statement that a better informed consumer 
through financial literacy is a better protected consumer.
    I will note that everyone raised their hand.
    I would like to--I am working on a bill that would get the 
CFPB much more engaged. They are engaged in specific target 
populations, but what we really need them engaged in is 
educating America because it is the best form of consumer 
protection.
    Rather than having some agency looking at transactions 
after they occur, getting consumers informed before 
transactions occur to make sure they are not taken advantage of 
is the best consumer protection. I see a shaking of heads 
across the board there, and I want to make sure we get the 
Consumer Financial Protection Bureau much more engaged in that 
effort of educating not just target populations.
    I am sorry I ran over. I apologize, and I yield back my 
time.
    Chairwoman Capito. All right.
    Mr. Heck?
    Mr. Heck. Thank you, Madam Chairwoman.
    I really appreciated, actually, Mr. Posey's reference to 
his constituent who repeatedly reminds him about the importance 
of financial literacy. After I spent so much incredible time 
and effort trying to get myself on this committee and went back 
home and shared that news with my family, my older brother 
Jerry, who retired after a successful career in the financial 
services sector, immediately responded with, ``Now, here is 
what your highest priority ought to be--financial literacy.'' 
And he has reminded me of that multiple times since, and I 
happen to agree with him.
    I would like to ask any of you, each of you, all of you, if 
you have any particular programs/tools/approaches that have as 
their particular focus members of the U.S. military. And the 
reason I ask that is I happen to have the privilege to 
represent a very large military installation, but also because 
it is pretty clear that young men and women in uniform tend to 
be kind of vulnerable, at times, to getting themselves in 
circumstances, some of them that a heightened degree of 
financial literacy would at least impede or mitigate.
    Any of you have any particular focus, programs, tools, 
outreach in that regard?
    Mr. Saik. Intuit is proud to support the U.S. military. We 
have a program through our TurboTax group where we provide 
TurboTax for free to help our military members prepare and file 
their taxes.
    Mr. Heck. Thank you for that.
    But in terms of an educational program to heighten 
financial literacy, do any of you have--
    Ms. Lamb. At WorldofMoney, many military families enroll 
their children in our institute every year, from Fort Dix to 
McGuire Air Force Base, and they travel to New York City to 
access or to attend the institute.
    Mr. Kehoe. Congressman, we have no specific products geared 
towards or specifically to servicemen and servicewomen. 
However, financial planners who are on the military bases 
across the country are one of our most frequent requesters of 
material that we send through. So that is something that we at 
least engage in the distribution of our material to military 
bases.
    Ms. Cackley. I am not aware of specific programs, but I am 
certainly aware that there is an Office of Servicemember 
Affairs within the Consumer Financial Protection Bureau which 
works and coordinates with the financial planners to whom Mr. 
Kehoe just referred.
    Mr. Heck. There certainly is, headed very capably by Holly 
Petraeus. I would encourage each of you to give a little bit of 
thought to what it is you might do in that regard.
    I want to go back to the issue of evaluation.
    And, Ms. Cackley, I am going to ask you to stand down in my 
first volley here.
    It is just not clear to me how you will know you are 
successful in a meaningful way. And by that I mean, the 
anecdotes are helpful. Some of the metrics like, ``Our product 
or our tool gets referred to other people,'' that is helpful.
    But at the end of the day, it seems to me the only metric 
that we are really after here is changing behavior in a way 
that makes the consumer more financially protected, secure, and 
smart, and I am asking, are any of you engaged in any 
evaluation efforts that would give us that information? 
Ultimately, that is the goal.
    Mr. Kehoe. I can kick it off by saying that I certainly 
agree that evaluation is absolutely critical. And there are a 
number of studies that we are engaged in which look at control 
groups and then educated people afterwards, and these do show 
that education has results.
    One thing that we look at in particular along a number of 
metrics is how many people keep a revolving balance on their--
    Mr. Heck. Keep what?
    Mr. Kehoe. --credit card account--a revolving balance on 
their credit card account. And in fact, one of the things we 
say that even the most--we have found is even the most basic of 
training means that we see around about a 20 percent reduction 
in the number of people who maintain a revolving balance. And 
actually, on things like having late fees on their accounts of 
paying, that was reduced by around about 23 percent.
    So yes, there are some studies out there which we are 
involved in that show that it is having an impact.
    Mr. Heck. I am nearly out of time. I would just conclude--I 
was actually hoping to plumb this a little with you, Ms. 
Cackley. You had indicated more evaluation would be useful.
    I would encourage--and it seems to me most appropriately 
you, but I may be wrong--advocacy for longitudinal evaluation 
with control groups, specifically geared to what works and what 
doesn't work. Because the truth of the matter is, everybody 
sitting at that table wins, everybody in America wins if we are 
able to accomplish that which you are engaged in, for which I 
commend you.
    I thank you for being here today very much.
    Thank you, Madam Chairwoman.
    Chairwoman Capito. Thank you.
    I think that concludes our hearing.
    I would like to thank all of our witnesses today. I think 
it has been very informative, and I appreciate the efforts that 
you are making in the area of financial literacy. I think if we 
all work together, we will keep moving forward. There is still 
lots of work to be done.
    Thank you so much.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    Without objection, the hearing is adjourned.

    [Whereupon, at 12:04 p.m., the hearing was adjourned.]


                            A P P E N D I X



                             April 30, 2014
[GRAPHIC] [TIFF OMITTED] 

                               <all>


</pre></body></html>
